<html>
<title> - EVALUATING THE IMPACT OF THE ``UMBRELLA MOVEMENT''</title>
<body><pre>[Senate Hearing 113-540]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 113-540

           EVALUATING THE IMPACT OF THE ``UMBRELLA MOVEMENT''

=======================================================================



                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON EAST ASIAN 

                          AND PACIFIC AFFAIRS

                                 OF THE

                     COMMITTEE ON FOREIGN RELATIONS

                          UNITED STATES SENATE

                    ONE HUNDRED THIRTEENTH CONGRESS

                             SECOND SESSION

                               __________

                            DECEMBER 3, 2014

                               __________

       Printed for the use of the Committee on Foreign Relations


      Available via the World Wide Web: http://www.gpo.gov/fdsys/




                  U.S. GOVERNMENT PRINTING OFFICE
92-750                    WASHINGTON : 2015
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001



                COMMITTEE ON FOREIGN RELATIONS         

             ROBERT MENENDEZ, New Jersey, Chairman        
BARBARA BOXER, California            BOB CORKER, Tennessee
BENJAMIN L. CARDIN, Maryland         JAMES E. RISCH, Idaho
JEANNE SHAHEEN, New Hampshire        MARCO RUBIO, Florida
CHRISTOPHER A. COONS, Delaware       RON JOHNSON, Wisconsin
RICHARD J. DURBIN, Illinois          JEFF FLAKE, Arizona
TOM UDALL, New Mexico                JOHN McCAIN, Arizona
CHRISTOPHER MURPHY, Connecticut      JOHN BARRASSO, Wyoming
TIM KAINE, Virginia                  RAND PAUL, Kentucky
EDWARD J. MARKEY, Massachusetts
               Daniel E. O'Brien, Staff Director        
        Lester E. Munson III, Republican Staff Director        

                         ------------          

         SUBCOMMITTEE ON EAST ASIAN AND PACIFIC AFFAIRS        

             BENJAMIN L. CARDIN, Maryland, Chairman        

CHRISTOPHER MURPHY, Connecticut      MARCO RUBIO, Florida
BARBARA BOXER, California            RON JOHNSON, Wisconsin
TOM UDALL, New Mexico                JEFF FLAKE, Arizona
EDWARD J. MARKEY, Massachusetts      JOHN McCAIN, Arizona

                              (ii)        



                            C O N T E N T S

                              ----------                              
                                                                   Page

Bush, Dr. Richard III, Director, Center for Northeast Asian 
  Policy Studies, Chen-Fu and Cecilia Yen Koo Chair in Taiwan 
  Studies, senior fellow, foreign policy, Brookings Institute, 
  Washington, DC, prepared statement.............................    12
Cardin, Hon. Benjamin L., U.S. Senator from Maryland, opening 
  statement......................................................     1
Richardson, Dr. Sophie, China Director, Human Rights Watch, 
  Washington, DC, prepared statement.............................    15
Russel, Hon. Daniel, Assistant Secretary for East Asian and 
  Pacific Affairs, U.S. Department of State, Washington, DC......     2
    Prepared statement...........................................     3

              Additional Material Submitted for the Record

Submitted written testimony of Ellen Bork, senior fellow, Foreign 
  Policy Initiative, Washington, DC..............................    25

                                 (iii)



 
           EVALUATING THE IMPACT OF THE ``UMBRELLA MOVEMENT''

                              ----------                              


                      WEDNESDAY, DECEMBER 3, 2014

                               U.S. Senate,
    Subcommittee on East Asian and Pacific Affairs,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:30 a.m., in 
room SD-419, Dirksen Senate Office Building, Hon. Benjamin L. 
Cardin (chairman of the subcommittee) presiding.
    Present: Senators Cardin and Rubio.

         OPENING STATEMENT OF HON. BENJAMIN L. CARDIN, 
                   U.S. SENATOR FROM MARYLAND

    Senator Cardin. Let me welcome you all to the Subcommittee 
on East Asian and Pacific Affairs.
    I have checked with Senator Rubio, and he consented that, 
because of the time issues--and that is that there are a series 
of votes that should take, unfortunately, the rest of the 
morning, starting at about 10 o'clock this morning and because 
of other scheduled meetings of the Senate Foreign Relations 
Committee, including a meeting with King Abdullah and a hearing 
on Iran sanctions, it is not possible to extend this hearing 
beyond the very short period of time that we have available.
    So, I thank the witnesses for their understanding, and we 
are going to try to expedite this. There may be questions for 
the record, because we may not have time to ask all the 
questions. And I would ask the witnesses to please respond to 
questions that may be asked for the record that normally would 
have been given.
    This will be the last hearing that I chair for the 
Subcommittee on East Asian and Pacific Affairs. And I really 
want to thank Senator Rubio for his help and cooperation. I 
think we have had a good schedule of hearings on the Rebalance 
to Asia and all the different components of it. We started with 
human rights, and we end with human rights.
    And I thank Danny Russel, the Assistant Secretary, who has 
been incredibly helpful to us in understanding the issues, has 
worked very closely with our committee.
    And, Danny, I thank you personally for all of your help.
    I do want to acknowledge the staff that have been, I think, 
incredibly helpful to me. I had a lot of experience in Europe, 
not much in Asia, and they really covered for me well, and I 
want to thank them all personally for doing that. Algene 
Sarjery, of my staff, who has been incredibly helpful; Kelly 
Swaine, who is a detailee from the Department of State; Michael 
Schiffer, from the committee staff; Carolyn Leddy, Victor 
Cervino, and Jamie Fly, from Senator Rubio's staff. All of them 
have really made, I think, the work of this subcommittee very 
productive. It was certainly done in a nonpartisan way, and I 
thank them for their help.
    We clearly have a very serious issue regarding what is 
going on in Hong Kong today. The last 48 hours have been very 
disturbing. We saw some violence, and we saw the end of this 
phase of the protests without the accomplishment of universal 
suffrage, which was a commitment given by the Chinese 
Government as a followup to the original Joint Declaration. So, 
clearly, we are concerned about that. There is legislation 
pending in the Congress to deal with this. The United States 
acted, in 1992, in the United States-Hong Kong Policy Act, 
saying human rights are of great importance to the United 
States and directly relevant to U.S. interests. And we gave 
Hong Kong status as a separate entity, but the President can 
take that status away if he believes Hong Kong is not 
sufficiently autonomous to justify such treatment.
    So, Secretary Russel, it is a pleasure to have you here.
    And, without objection, all of your written statements will 
be made part of the record, for both panels, and the members' 
opening statements will also be made part of the record.
    Secretary Russel.

 STATEMENT OF THE HON. DANIEL RUSSEL, ASSISTANT SECRETARY FOR 
   EAST ASIAN AND PACIFIC AFFAIRS, U.S. DEPARTMENT OF STATE, 
                         WASHINGTON, DC

    Mr. Russel. Thank you very much, Mr. Chairman. And I thank 
you both for the opportunity to testify on this important and 
timely topic, but also thanks to you, personally, for your 
leadership and your partnership as chairman of this 
subcommittee.
    Secretary Kerry has made the U.S. position very clear, in 
public and in private. An open society with a high degree of 
autonomy and rule of law has made Hong Kong successful and is 
essential to its future stability and prosperity. So, the 
United States supports universal suffrage and the aspirations 
of the Hong Kong people under the ``one country, two system'' 
framework.
    As President Obama said at a press conference in Beijing 
last month with President Xi Jinping standing right next to 
him, the United States consistently speaks out on the right of 
people to express themselves and encourages that the elections 
in Hong Kong are transparent and fair and reflective of the 
opinions of the people there. We believe that the legitimacy of 
the Hong King Chief Executive will be greatly enhanced by 
universal suffrage, by an election that provides the people of 
Hong Kong a meaningful choice of candidates representative of 
the voters' will. This means allowing for a competitive 
election in which a range of candidates with different policy 
approaches are given an opportunity to seek the support of 
eligible Hong Kong voters.
    In regard to the ongoing pro-democracy demonstrations in 
Hong Kong, the United States has consistently emphasized our 
support for freedom of assembly and freedom of expression, and 
we have encouraged both sides to address their differences 
peacefully through dialogue. And we have been clear, in the 
face of Chinese allegations, that the United States is not in 
any way involved in the protests. In fact, it is disingenuous 
to suggest that this debate is driven by outsiders, when it is 
so clearly about Hong Kongers' own hopes for their future.
    It is important to note that the electoral reform process 
in Hong Kong is still underway. The debate is ongoing, and 
legislative action is planned for the first half of 2015. 
Failure to enact reforms would be a setback. We, therefore, 
encourage Beijing, the Hong Kong Government, and the people of 
Hong Kong to work together to ensure that a competitive process 
for the selection of the Chief Executive through universal 
suffrage is established for 2017. A multicandidate, competitive 
election would be a major step in Hong Kong's, and indeed the 
People's Republic of China's, political development.
    The United States and Hong Kong are bound by shared values, 
economic and cultural relations, and people-to-people ties. 
Hong Kong has long protected fundamental freedoms. It is number 
one on the Heritage Foundation's Economic Freedom Index. It is 
the ninth-largest market for U.S. exports. It is a key source 
of foreign direct investment in the United States. That gives 
the United States, as well as China, a vested interest in 
preserving the system and autonomy of Hong Kong that brings 
stability and prosperity. That is why we stress the importance 
of China upholding its commitments. That is why we continue to 
speak out clearly and remain engaged on Hong Kong.
    Thank you. I welcome your questions.
    [The prepared statement of Mr. Russel follows:]

                  Prepared Statement of Daniel Russel

                              introduction
    Today's hearing is timely given the debate taking place in Hong 
Kong over electoral reforms and the implementation of universal 
suffrage for the 2017 selection of Hong Kong's next Chief Executive. I 
welcome this opportunity to share with the committee the 
administration's views and response to political developments in Hong 
Kong, particularly with regard to the National People's Congress 
Standing Committee's (NPCSC) August 31 decision and the Hong Kong 
Government's response to the protests. I would also like to touch on 
the importance of our relationship with Hong Kong under the ``One 
Country, Two Systems'' framework.
    Secretary Kerry is watching the situation in Hong Kong closely. The 
administration believes that an open society, with a high degree of 
autonomy and governed by the rule of law, is essential for Hong Kong's 
stability and prosperity--indeed this is what has made Hong Kong such a 
successful and truly global city. As we do around the world, the United 
States advocates in China for internationally recognized fundamental 
freedoms, such as freedom of peaceful assembly and freedom of 
expression.
    Long before Hong Kong made its way into headlines, we made clear to 
Beijing our support for universal suffrage and the aspirations of the 
Hong Kong people under the ``One Country, Two Systems'' framework. We 
will not back off on that support. We have reaffirmed our position 
publicly and privately in numerous meetings with Chinese and Hong Kong 
officials at all levels of government. Most recently, Secretary Kerry 
raised Hong Kong in meetings with Chinese interlocutors in the runup to 
the APEC summit in Beijing, and President Obama made these points there 
in his meetings with President Xi. As the President said at a press 
conference in Beijing with President Xi standing next to him, the 
United States is going to ``consistently speak out on the right of 
people to express themselves, and encourage that the elections that 
take place in Hong Kong are transparent and fair and reflective of the 
opinions of people there.''
    The ``One Country, Two Systems'' model, which is a long-standing 
Chinese position put forward by Deng Xiaoping and reflected in the 
PRC's Constitution, has provided a solid foundation for our strong 
relationship with Hong Kong. It means, among other things, that China 
accepts that Hong Kong government will retain its own legislative and 
judicial powers, as well as its own laws. And it means that Hong Kong's 
freedoms should be guaranteed by the PRC. At the time of reversion in 
1997, China--under the ``Basic Law''--committed to several important 
principles: ``One Country, Two Systems,'' ``Hong Kong people governing 
Hong Kong,'' maintenance of ``a high degree of autonomy,'' and that the 
Chief Executive and all the members of the Legislative Council should 
be elected by ``universal suffrage.''
    The ``One Country, Two Systems'' principle has enabled Hong Kong to 
flourish as an important example of prosperity, tolerance, open 
expression, and free market ideals. ``One Country, Two Systems'' has 
been central to Hong Kong's economic success. Hong Kong currently ranks 
first in the Heritage Foundation's Index of Economic Freedom. The PRC, 
I would note, ranks 137th.
    Mr. Chairman, preserving Hong Kong's unique system and character 
serves the best interests of all parties. So we are concerned by signs 
that China's commitment to the ``One Country, Two Systems'' model, as 
well as to maintaining a high degree of autonomy, are eroding. While 
Hong Kong's media environment remains far less restricted than on the 
mainland, the steady downward trend in media freedom is troubling. The 
ability of Hong Kong's judiciary system to remain independent in the 
long term will be another critical indicator of China's commitment to 
the unique ``One Country, Two Systems'' model.
    In addition, the legitimacy of Hong Kong's Chief Executive will be 
greatly enhanced if the promise of universal suffrage is fulfilled. By 
this I mean an election that provides the people of Hong Kong a 
meaningful choice of candidates representative of the voters' will. 
This means allowing for a competitive election in which a range of 
candidates with differing policy approaches are given an opportunity to 
seek the support of eligible Hong Kong voters.
    That is why the administration has called on the PRC to uphold its 
commitments to Hong Kong under the Basic Law to preserve Hong Kong's 
freedoms and autonomy, including through universal suffrage. We 
encourage Beijing, the Hong Kong government and the people of Hong Kong 
to work together to advance Hong Kong's democratic development, 
establish universal suffrage by 2017, and preserve Hong Kong's autonomy 
and its free and open society.
Beijing's Decision and the Nominating Committee
    Based on the Sino-British Joint Declaration and the Basic Law from 
1997, in 2007 the Standing Committee of the National People's Congress 
(NPCSC) agreed that the election of Hong Kong's Chief Executive ``may 
be implemented by the method of universal suffrage'' in 2017. Over the 
last year, the people of Hong Kong, the Hong Kong government, and the 
authorities in Beijing have vigorously debated how that process should 
take place.
    Early this year, the Hong Kong government held a first round of 
public consultations to discuss the implementation of universal 
suffrage for the 2017 election. Hong Kong residents submitted numerous 
suggestions for designing the electoral system and many Hong Kong 
residents voiced their desire for significant democratic reform. I 
visited Hong Kong in early May and met with a broad cross-section of 
the public, including representatives of civil society and various 
political parties, in addition to the head of the Legislative Council 
and senior officials in the Hong Kong government. I can attest to the 
vigorous and open debate in Hong Kong about how best to implement 
universal suffrage.
    That debate intensified during the summer. Local NGOs conducted an 
online poll of public opinion in which almost 800,000 Hong Kong 
residents expressed pro-democracy views, and in early July, perhaps as 
many as 500,000 Hong Kong residents took part in the annual pro-
democracy demonstration. The Hong Kong government in July submitted a 
report to Beijing based on its results of the public consultation and 
the NPCSC then issued its decision on August 31.
    The NPCSC decision on August 31 set limits on the selection of the 
Chief Executive by universal suffrage. It limited the number of 
candidates to two or three, required the Chief Executive to be a person 
who ``loves the country and loves Hong Kong,'' and mandated that any 
nominee must receive the endorsement of more than half of the 1,200 
person nominating committee. While the NPCSC's decision conformed to 
requirements of the Basic Law in the literal sense, it was criticized 
by many Hong Kong groups and triggered the public protests that are 
still underway. The objection to the NPCSC decision of August 31 is 
that it would effectively block nonestablishment candidates from 
competing in the election for Chief Executive.
The Protests and the Hong Kong Government Response
    On September 26, a week-long student strike and independently 
organized demonstrations against Beijing's decision escalated when a 
few dozen university students entered the grounds of Hong Kong 
government headquarters. When a crowd surged onto a major adjacent 
thoroughfare, Hong Kong police used tear gas to disperse the crowd. 
Rather than dispersing the protesters, however, the use of tear gas 
prompted more residents to take to the streets and protesters settled 
into three main protest locations.
    On October 21, the Hong Kong government and leaders from the Hong 
Kong Federation of Students engaged in one round of televised talks, 
but there has been little dialogue reported between the two sides 
since. The Hong Kong government has complained that the protest 
movement lacks representative leadership it can negotiate with. 
Protesters have countered that the government is not taking their 
demands seriously.
    Within the past 2 weeks, Hong Kong police have enforced civil court 
injunctions to clear certain protest sites. While there were some 
clashes between police and protesters in clearance operations in the 
Mongkok area, we assessed that both parties had for the most part acted 
with patience and restraint. The alarming flareup on November 30 near 
Hong Kong government offices demonstrates, however, that the potential 
for violence remains and that all sides need now more than ever to 
exercise restraint and to lower tensions.
    Since these protests began in September, we have emphasized at all 
levels our support for freedom of peaceful assembly and freedom of 
expression without fear of retribution. We have encouraged the Hong 
Kong authorities and the protestors to address their differences 
through dialogue. We have urged the Hong Kong government to act with 
restraint and the protestors to express their views peacefully. We have 
also categorically denied allegations from China that the United States 
is in any way involved in the protests. It is disingenuous to suggest 
that this debate is driven by outsiders when it is so clearly about 
Hong Kongers' hopes for their future.
Next Steps
    It is important to note that the electoral reform process in Hong 
Kong is still underway. Due to the protests, the Hong Kong government 
delayed a second round of public consultations, which are now expected 
to begin later this month. These consultations are meant to allow the 
public to provide input into how the nominating committee will be 
constituted and the mechanism by which candidates will be selected. It 
will be during this round of consultations that the government and the 
residents of Hong Kong explore options for devising a nominating system 
that can garner a sufficient number of votes to pass the legislature.
    In order for electoral reforms to be implemented, a bill to amend 
the Basic Law must pass the Legislative Council with a two-thirds 
majority and be approved by Beijing. This legislative action is planned 
for the first half of 2015. If the Legislative Council does not amend 
the Basic Law by the summer of 2015, Beijing has said that the 2017 
election for Chief Executive would again be carried out under the 
existing system under which the Chief Executive is selected by an 
Election Committee of 1,200 members rather than directly by Hong Kong's 
5 million potentially eligible voters. This would be a significant 
setback to the democratization process, and it underscores the 
importance of the efforts by Hong Kong's authorities and its people to 
design an electoral process that maximizes progress toward universal 
suffrage under the Basic Law.
    Conversely, if the Basic Law is amended to provide for a 
multicandidate selection process for the Chief Executive, 2017 will 
mark the first time in Hong Kong's history that its citizens will be 
given a voice in that choice. A multicandidate competitive election 
would be a major step in Hong Kong's, and indeed the People's Republic 
of China's, political development.
U.S. Interests and Actions
    Mr. Chairman, allow me to describe the importance we place on our 
relationship with Hong Kong. This relationship rests on three pillars: 
shared values, economic and cultural relations, and people-to-people 
ties. Hong Kong has long reflected and protected fundamental freedoms: 
freedom of expression, freedom of peaceful assembly, a strong 
independent legal system, rule of law, a free media, and an active 
civil society--all values shared with the United States.
    We are also linked by strong economic ties. Hong Kong is the ninth-
largest market for U.S. exports and the sixth-largest market for U.S. 
agricultural products.
    Despite Hong Kong's small population, our trade surplus with Hong 
Kong is our largest surplus with any single trading partner. More than 
1,400 American companies have invested in and set up shop in Hong Kong. 
Hong Kong is a key source of foreign direct investment in the United 
States, as well. Hong Kong's world class financial markets, which 
include Asia's second-largest stock exchange and third-largest foreign 
exchange market, are supported by a transparent regulatory regime and 
strict oversight. Hong Kong is a strong voice in both APEC and the WTO 
in favor of free trade, often in alignment with our own goals.
    This is possible because of Hong Kong's special status under the 
principle of ``One Country, Two Systems'' that allows Hong Kong to 
operate as a separate customs territory from China and exercise 
autonomy in areas other than foreign and defense affairs, including its 
judiciary system and its U.S. dollar-linked currency and financial 
system. This has allowed us to develop a robust relationship in law 
enforcement arenas--including export control, counterterrorism, 
counterproliferation, antimoney laundering, and anticorruption--in 
which Hong Kong's authorities work with the United States to protect 
our security interests. The United States has signed a wide range of 
agreements with Hong Kong since the handover, which provide for 
extensive technical cooperation in these and other areas. For example, 
Hong Kong counterparts respond positively to more than 95 percent of 
requests from U.S. Customs to search containers and the Hong Kong 
Customs and Excise Department has actively enforced the Convention on 
the International Trade in Endangered Species (CITES).
    In addition, we have deep social, cultural, and people-to-people 
ties, boosted by the tens of thousands of U.S. citizens residing in 
Hong Kong, and the thousands more who visit Hong Kong, visa-free, every 
day for business or tourism. Hong Kong is one of the highest per capita 
sources in the world of foreign students in America's higher education 
system and hosts thousands of American students, academics, and 
journalists as well.
                               conclusion
    The United States and China each have a vested interest in Hong 
Kong's continued stability, autonomy, and prosperity. It is therefore 
important that China upholds its international obligations and 
commitments that Hong Kong's high degree of autonomy will be respected 
and nurtured. It is in all of our interests to see electoral reform in 
Hong Kong that provides the people of Hong Kong a meaningful choice of 
candidates, and that the 2017 elections in Hong Kong will be 
transparent, fair, and reflective of the opinions of the Hong Kong 
people.
    We have also consistently counseled the Hong Kong government to 
exercise restraint and called on protesters to exercise their right to 
freedom of expression peacefully. We have consistently supported 
further dialogue between the government and protesters as the best way 
for Hong Kong to move this important debate forward. An open society 
that respects the rights of its citizens and universal freedoms, with 
the highest possible degree of autonomy and governed by the rule of 
law, is essential for Hong Kong's continued stability and prosperity.
    We will continue to voice our support for universal suffrage in 
Hong Kong and to stand up for universal human rights and fundamental 
freedoms. We will stand up for Hong Kong's autonomy under ``One 
Country, Two Systems'' and the Basic Law. We will continue to encourage 
the government and people of Hong Kong to work together peacefully to 
advance Hong Kong's democratic development. We believe this engagement 
remains the most effective way to preserve Hong Kong's autonomy and 
free and open society.
    Mr. Chairman, I thank you for the opportunity to appear before you 
today to discuss Hong Kong. I look forward to answering any questions 
you and others from the committee may have.

    Senator Cardin. Thank you, Secretary Russel, again, for all 
of your leadership on this issue.
    As I pointed out, the 1992 United States-Hong Kong Policy 
Act, which acknowledged the separate identity of Hong Kong from 
mainland China and recognized the importance of Hong Kong as an 
economic partner of the United States and its global role in 
the economy, gave the President the ability to eliminate that 
status if it is not sufficiently autonomous to justify such 
treatment, and spelled out very clearly that human rights are 
of great importance to the United States and directly relevant 
to United States interests in Hong Kong. The 1984 Joint 
Declaration between Great Britain and China, ``one country, two 
systems,'' contained in its index the International Covenant on 
Civil and Political Rights, which provides for universal 
suffrage. Then the 1990 China National People's Congress 
Declaration, the Basic Law for Hong Kong, spelled out the 
ultimate aim and selection of the Chief Executive by universal 
suffrage, upon the nomination by a broadly representative 
nominating committee in accordance with democratic procedures. 
They clearly are not following that with their most recent 
declaration on August 31.
    The protests were peaceful. We had nothing to do with the 
protests, as you pointed out. The authorities exercised some 
restraint, but recently that changed.
    My question to you is what action does the administration 
intend to take to communicate that their most recent action, on 
August 31, was unacceptable? And Congress is prepared to take 
action, which, among other things, reinstates our basic 
commitment to human rights, but also points out that the annual 
report on its progress will be reinstated, but also changing 
the burden from the administration having to certify that it is 
no longer in status to one where you have to certify that they 
are in status. Would that not be helpful in giving you 
additional leverage in being able to make it clear that their 
current policy is unacceptable?
    Mr. Russel. Thank you very much, Mr. Chairman, for those 
questions, and those very important questions.
    We, too, were disappointed by the August 31 decision of the 
NPC. Now, our analysis suggests that this decision does not 
necessarily contravene the letter of the Basic Law, but the 
decision could and should have gone much, much further to allow 
for a nomination by a broadly representative nominating 
committee in accordance with democratic procedures.
    Our logic is this. The legitimacy of the Chief Executive, 
which matters greatly, would be enhanced by a competitive 
electoral process that includes multiple candidates. Our 
objective is to encourage a process that culminates in 
universal suffrage, which allows the people of Hong Kong to 
have a meaningful say in the selection of the Chief Executive.
    Now, the August 31 decision that you referenced 
circumscribes, to some extent, the nominating process. But, 
that process--how to define membership and the procedures of 
the nominating committee--is very much still underway, it is 
still a work in process. It is going to be the subject of a 
second round of public consultations that are expected to start 
later this month.
    I would also add, Mr. Chairman, that, in our approach, 
which has been forceful and clear, we have taken care not to 
lose sight of the fact that this is an issue that will and 
should be decided by the people of Hong Kong. And they have 
demonstrated they are no pushovers. They have shown that they 
are willing to express their dissatisfaction and their 
aspirations directly to the authorities through responsible and 
peaceful dissent. I believe our role is to foster that and to 
shine a bright light on the situation and show that we support 
the rights of the people of Hong Kong.
    So, you asked what we are doing about it. Well, first and 
foremost, we are speaking out very clearly and very forcefully. 
As I mentioned, I was in the room when President Obama stood 
next to Xi Jinping in Beijing and spoke forcefully about our 
support for the rights of the people of Hong Kong. I was in the 
room when Secretary Kerry stood next to the Chinese Foreign 
Minister in front of the cameras and said that we are concerned 
about the situation in Hong Kong because human rights are a 
centerpiece of American foreign policy. And I can attest, 
personally, to the fact that words matter, because I have been 
the target of considerable Chinese unhappiness about those 
words. We have their attention.
    So, my points would be, one, Mr. Chairman, this situation 
is still playing out. It is far from over. And it would be a 
mistake to underestimate the resolve and the determination of 
the Hong Kong people. Two, the Chinese know that the world is 
watching. And this matters. It has a reputational cost to them.
    With regard to the third part of your question concerning 
the prospect of legislation, I know that there is a discussion 
underway among our staffs about the specifics. In terms of the 
general principle, I would ask, Mr. Chairman, that nothing in 
the legislation should undermine the principle that Hong Kong 
is autonomous. We want to be careful not to lump Hong Kong and 
the mainland together in a way that undercuts inadvertently 
that autonomy, because Hong Kong's record in rule of law and 
economic freedoms is so important. I mentioned that Hong Kong 
scored number one on the Heritage Foundation's list of economic 
freedom. Well, what I did not mention is that the PRC ranks 
137. These are different systems. And preserving the difference 
between these two systems should be an objective of any 
legislation.
    Senator Cardin. Thank you. I agree with you, words do 
matter. And I think the President's comments, the Secretary of 
State's comments, were strong and very appropriate. So, I agree 
with you. But, I think actions are also important. And we are 
concerned about how the protesters are going to be treated, 
because we know there are some legal issues that are now 
pending, some orders that are currently pending, and I would 
hope that we will watch very carefully how the legal system of 
Hong Kong deals with the individuals that were peacefully 
demonstrating. And I can tell you that this Senator is going to 
be watching that very closely as it could have major impact on 
action that I propose to take in the next Congress.
    And then, just the last point I would make, I think it is 
very clear the commitment that China made for Hong Kong to be 
able to implement universal suffrage. And we acknowledge the 
autonomy of Hong Kong, but it appears very clear to us that 
China is influencing the implementation of universal suffrage 
in a way that is inconsistent with the commitment they gave to 
respect the International Covenant on Civil and Political 
Rights. And it has been, now, 30 years since the Joint 
Declaration. We have passed enough time that this is a critical 
milestone as to whether Hong Kong indeed will embrace 
democratic principles.
    With that, I turn to Senator Rubio.
    Senator Rubio. Thank you. Thank you, Mr. Chairman, for 
holding this hearing.
    And thank you for being here today.
    I wanted to ask you, right off the bat, on September 29, 
the U.S. consulate general in Hong Kong issued a statement. 
Here is what it said, in part, ``We do not take sides in the 
discussions of Hong Kong's political development, nor do we 
support any particular individuals or groups involved in it.'' 
Does that reflect the official position of this administration? 
That we do not take sides?
    Mr. Russel. Well, thank you, Mr. Ranking Member, Senator 
Rubio. I did not get a chance to express my appreciation for 
your work, your leadership, and your support on this 
subcommittee.
    The statement issued by the consulate in September, which 
is one of a long series of public statements by U.S. officials, 
was aimed at eradicating a story that was topping the news in 
Hong Kong, suggesting that the United States was the hidden 
hand behind a particular group or a particular individual 
involved in the demonstrations. The fact of the matter is, 
Senator, we do take sides. We take the side of justice. We take 
the side of freedom. We take the side of dialogue. We take the 
side of freedom of speech and freedom of assembly. We take the 
side of peaceful protest. We do not take sides with an 
individual or a particular group.
    But, if you look at our statements, the statements of the 
U.S. Government, the President, the Secretary of State, and the 
consulate, you will see a consistent and clear message of 
support for the principle of universal suffrage in line with 
the Basic Law, support for the democratic aspirations of the 
people of Hong Kong, and, importantly, support for ``one 
country, two systems.'' We believe that the United States has a 
stake in preserving the unique character and system of Hong 
Kong. That is a system that has, as I mentioned before you came 
in, the number one spot in the Heritage Foundation's Index of 
Economic Freedom. That counts for a lot.
    Similarly, we strongly support the process to apply 
universal suffrage to the selection of the Chief Executive in 
2017. And by ``universal suffrage,'' we do not mean a very 
narrowly constructed arrangement, we mean giving voice to the 
citizens of Hong Kong, giving them a say in the selection of 
their leader.
    Senator Rubio. Yes. Well, thank you for that explanation. 
That clarifies most of that. But, I did want to ask you this, 
then. On the 31st of August, China's National People's 
Conference--and I am going to read from it just to make sure 
that I get it right--it placed strict conditions, as has been 
talked about here. And here is one of the things that they said 
about the--that the Deputy Secretary General said, the 
candidates would need to, ``love the country''-- 
I imagine meaning China--``and also love Hong Kong.''
    So, I wonder if that--by that term, of ``loving the 
country,'' is basically code for loving the--having loyalty to 
the Chinese Communist Party. And so, my question is, Is it the 
position of this administration that the August decision, with 
regard to the nature of this election, is in keeping with the 
aims and the requirements of article 45 of the Basic Law? Are 
the Chinese compliant with that in their position that they 
have taken?
    Mr. Russel. Well, thank you for that question, Senator.
    We were disappointed by the August 31 decision. We think 
that that formula excessively circumscribes the selection 
process that will be an essential element of the application of 
universal suffrage. Our analysis suggests that, while that 
decision of the National People's Congress may not literally 
contravene the letter of the basic agreement, it falls very far 
short of the aspirations of the people of Hong Kong, and it 
falls short of what we would hope for, in terms of a nomination 
process that would result in a broadly representative 
nominating committee, in accordance with democratic procedures.
    The key point, Senator, is, we believe that, for the 
purposes of Hong Kong's long-term stability and prosperity, the 
legitimacy of the Chief Executive will be greatly enhanced by a 
credible application of universal suffrage that allows a free 
expression of choice by the voters to select from among 
competing points of view, not simply a choice between three 
identical handpicked candidates. And this is what is under 
discussion now among the stakeholders in Hong Kong.
    I visited Hong Kong in May and found a very vibrant debate 
between nongovernmental groups, between political parties, 
between the Hong Kong authorities, and, obviously, 
representatives of Beijing. That debate has intensified. It has 
spilled out onto the streets. It has taken the form of major 
referenda and questionnaires. And, later this month, we expect 
and hope that it will again take the form of a second round of 
public consultations.
    So, we consider this still a work in progress, and it is 
our determination, as an administration, to speak out and have 
America's voice----
    Senator Rubio. But, to summarize your----
    Mr. Russel [continuing]. Very clearly----
    Senator Rubio [continuing]. Summarize your statement--and I 
appreciate your answer--but, to summarize it is that perhaps 
they have found a technical way to, at a minimum, be 
semicompliant with the letter of law, but certainly fall well 
short of the spirit of the law, in----
    Mr. Russel. That is our view.
    Senator Rubio [continuing]. Regards to how it is been 
written.
    Well, in that sense, then, is there not a couple of lessons 
to be taken from this? The first is that the Chinese Government 
has proven to be an untrustworthy ally--or an untrustworthy 
partner, in any sort of future--or international agreements. I 
mean, they basically signed this agreement, and now have found 
interesting ways to circumvent it, certainly in its application 
or how it is working, as you said, in the spirit of it. What 
does that say about their future reliability in any other 
agreement they enter into with us, with the international 
community, with anyone?
    Mr. Russel. Senator----
    Senator Rubio [continuing]. At a minimum, it calls into 
question their reliability.
    Mr. Russel. Senator, there is no question but that the 
United States, the region, and the world is watching how China 
deals with Hong Kong and how it implements its commitments 
under the Basic Law and other agreements. That is why we have 
been urging and counseling the Chinese, both privately and 
publicly, to exercise restraint, to be flexible, and to allow 
the voices of the people of Hong Kong to be heard.
    Their neighbors are drawing conclusions also about China 
and about the reliability of China's pledges and commitments. I 
do not think that there is a case that can fairly be made to 
describe this August 31 decision by the NPC as in direct 
contravention of the Basic Law, but I equally believe there is 
not a credible case that would allow us to argue that the 
August 31 decision furthered the cause of universal suffrage.
    Senator Cardin. Senator Rubio has one additional question, 
but I just really want to underscore one point of urgency here.
    You point out that the region is watching, the world is 
watching. And you are absolutely correct. Hong Kong is very 
important economically, not just to the United States 
bilaterally, but it is a part of the economic fiber of global 
commerce. So, there is a great deal of interest in what is 
happening. But, when you see what happened in the Taiwan 
elections, you know that it has political consequences, at 
least the analysis is that it had an impact on the results in 
Taiwan's elections. When you look at British parliamentarians 
being denied visas to look at the country to see if they are in 
compliance with agreements, that raises questions as to whether 
China's taken taken this to a different level.
    So, I would just underscore the urgency of a strategy that 
includes more than just words as it relates to the autonomy and 
our relationship with Hong Kong.
    And Senator Rubio has one additional question.
    Senator Rubio. I just would make the comment, I think you 
can make the argument that how you apply a law directly 
contradicts its meaning, even if--maybe what they are saying 
and what they are doing, here, are two separate things. They 
clearly want to influence the outcome of this election toward--
they clearly want to set up a process that would elect someone 
that will do their bidding and will be compliant to the wishes 
of the Central Government in China. And that is in direct 
contradiction to an agreement that was based upon true 
autonomy.
    And so, I do believe it is in direct contravention of the 
agreement. I, furthermore, would say that, you know, there have 
been statements--I am sorry--there have--there has been 
evidence that these groups of armed thugs who miraculously 
showed up out of nowhere to beat up these protesters--I think 
the evidence is pretty clear that they were sent there by the 
Central Government, at least in my opinion. And I would love to 
see someone disprove that. So, I think that you have to look at 
that, as well, as a factor in all of this.
    But, here is my final point. I think that the learning--the 
lesson to be learned by all of this is that all this talk out 
there, that the hopes that--you know, these economic 
interchanges and dialogue with China was going to change the 
nature of the Central Government, is a fairytale. It is wishful 
thinking. This government, as it is currently structured in 
China, is--this is their nature, is to control, to be 
authoritarian. And every instance in which they have been 
challenged in that, or have been challenged toward more of a 
democratic or a societal opening, they have pushed back 
against. And Hong Kong is the latest example of it. And I think 
there is a lesson to be learned there, that if we are hanging 
our hopes that more economic interchange with them is going to 
somehow transform them into a more open, more liberalized, and 
more inclusive government, it does not seem that way at this 
point, certainly from their reaction with what has happened in 
Hong Kong. And I think that that is a factor that we need to 
accept today as a reality, and base our policy based on that 
reality, because this does not leave me hopeful that this is a 
government that, at any point in the near future, is going to 
be more open and more accommodating. In fact, it is the tactics 
of a government that is becoming increasingly more centralized, 
more authoritarian, and more willing to take strong actions 
against those who challenge the authority of the Communist 
Party and the Central Government. And I think that bodes ill 
for the future of the region, and, quite frankly, of the world, 
as China takes on a greater economic and military importance.
    Senator Cardin. Thank you, Senator Rubio.
    Secretary Russel, once again, I personally thank you for 
the courtesy, respect, and expertise that you shared with this 
subcommittee during the past 2 years. It has been a very open 
relationship, with very frank discussions. As a result, I think 
the United States spoke with greater strength in our messages 
to East Asia and the Pacific. So, thank you very much. And with 
that, you are excused.
    Mr. Russel. Thank you very much, Chairman.
    Senator Cardin. Our second panel is Dr. Richard Bush, 
director, Center for Northeast Asian Policy Studies, Chen-Fu 
and Cecilia Yen Koo Chair of Taiwan Studies, senior fellow in 
foreign policy, the Brookings Institute; and Dr. Sophie 
Richardson, the China director, Human Rights Watch, Washington, 
DC.
    Our witnesses have agreed that their written statements 
will be incorporated in our record, and they are open to us 
proceeding directly with questioning. And I appreciate that 
very much. And, as I said earlier, we may have some additional 
written questions for the record.
    [The prepared statements of Dr. Bush and Dr. Richardson 
follow:]

                 Prepared Statement of Richard C. Bush

    There has been a wide range of views in Hong Kong about the value 
of democratic elections.
    So far, the Chinese Government has consistently chosen to engineer 
the Hong Kong electoral system so that no individual it mistrusts could 
be elected Chief Executive (CE) and no political coalition that it 
fears could win control of the Legislative Council (or LegCo). To elect 
the Chief Executive, it created an election committee composed mainly 
of people it trusts. For LegCo, it established functional 
constituencies that give special representation to establishment 
economic and social groups. These functional constituencies together 
pick half the members of LegCo. As a result, Hong Kong's economic elite 
has dominated those institutions.
    Major economic interests in Hong Kong have been happy with the 
current setup because it provides them with privileged access to 
decisionmaking and the ability to block initiatives proposed by the 
democratic camp. Within this establishment, there is long-standing 
belief that majority rule would create irresistible demands for a 
welfare state, which would raise taxes on corporations and wealthy 
individuals and so sap Hong Kong's competitiveness.
    The public, on the other hand, supports democratization. In the 
most representative election races (for some LegCo seats), candidates 
of the pro-democracy parties together get 55 to 60 percent of the vote. 
Those parties have tried for over 20 years to make the electoral system 
more representative and to eliminate the ability of Beijing and the 
establishment to control political outcomes. But there are divisions 
within the pan-democratic camp between moderate and radical factions, 
based on the degree of mistrust of Beijing's intentions.
    There is a working class party and a labor confederation that 
supports Beijing and is supported by it. On electoral reform, it has 
followed China's lead.
    Of course, any electoral system requires the protection of 
political rights. The Joint Declaration and the Hong Kong Basic Law 
protected those rights on paper, and the judiciary generally has upheld 
them. But there are serious concerns in Hong Kong that political rights 
are now being whittled away.
    The August 31 decision of the PRC National People's Congress-
Standing Committee on the 2017 Chief Executive election confirmed the 
fears of Hong Kong's pan-democratic camp that Beijing does not intend 
to create a genuinely democratic electoral system. That decision almost 
guaranteed there would be with some kind of public protest.
    Before August 31, there had been some hope in Hong Kong that 
China's leaders would set flexible parameters for the 2017 election of 
the Chief Executive, flexible enough to allow an election in which 
candidates that represented the range of local opinions could compete 
on a level playing field. Instead, the rules the Standing Committee of 
the National People's Congress laid down were interpreted as ensuring 
that Beijing and the local Hong Kong establishment, by controlling the 
nominating committee, could screen out candidates that they saw as a 
threat to their interests.
    I happen to believe that before August 31 there was available a 
compromise on the nomination process. The approach I have in mind would 
have liberalized the composition of the nominating committee so that it 
was more representative of Hong Kong society and set a reasonable 
threshold for placing someone in nomination. This would have been 
consistent with the Basic Law (a Chinese requirement) and likely 
ensured that a pan-Democratic politician could have been nominated (the 
democrats' minimum hope). Hong Kong voters would have had a genuine 
choice. There were Hong Kong proposals along these lines. Such an 
approach would have had a chance of gaining the support of moderate 
Democrats in Legislative Council, enough for reaching the two-thirds 
majority required for passage of the election plan.
    Reaching such a compromise was difficult because of the deep-seated 
mistrust between the Hong Kong democratic camp and Beijing, and within 
the democratic camp. If there was to be movement toward a deal Beijing 
would have had to signal that it was serious about such a compromise, 
in order to engage moderate democrats. It chose not to, and an 
opportunity was lost.
    Why Beijing spurned a compromise is unclear.
    Perhaps it interpreted its ``universal suffrage'' pledge narrowly, 
to mean one-person-one-vote, and not a competitive election. Perhaps it 
wished to defer a truly competitive contest until it was sure that one-
person-one-vote elections would not hurt its interests. Perhaps Beijing 
was overly frightened about the proposed civil disobedience campaign 
called ``Occupy Central.'' Perhaps it judged that radical democrats 
would block their moderate comrades from agreeing to a compromise. 
Perhaps China actually believed its own propaganda that ``foreign 
forces'' were behind the protests. Perhaps it never had any intention 
of allowing truly representative government and majority rule. But if 
Beijing believed that taking a hard line would ensure stability, it was 
badly mistaken.
    Whatever the case, the majority in Hong Kong saw the August 31 
decision as a bait-and-switch way for Beijing to continue to control 
the outcome of the CE election and as a denial of the long-standing 
desire for genuine democracy. A coalition of student leaders, Occupy 
Central supporters, democratic politicians, radical activists, and 
middle-class people resorted to the only political outlet they had: 
public protest. If the Chinese Government had wished to empower Hong 
Kong radicals, it couldn't have hit upon a better way.
    Although Beijing's August 31 decision guaranteed a public response 
in Hong Kong, the form it took was unexpected. Student groups preempted 
the original Occupy Central plan, and the takeover of three separate 
downtown areas resulted, not from a plan but from the flow of events. 
The Hong Kong Police did overreact in some instances, but each time it 
sought to reestablish control, there was a surge of public support for 
the core protester groups, mobilized by social and other media.
    The protests were fueled by more than a desire for democracy.
    Also at work were factors common in other advanced societies. Hong 
Kong's level of income and wealth inequality is one of the highest in 
the world. Young people tend to believe that they will not be able to 
achieve a standard of living similar to that of their parents. Real 
wages have been flat for more than a decade. Buying a home is out of 
reach for young people, in part because a small group of real estate 
companies control the housing supply. Smart and ambitious individuals 
from China compete for good jobs.
    Hong Kong students have gotten the most attention in the current 
protests. Just as important however, are older cohorts who are 
pessimistic about their life chances. They believe that the Hong Kong 
elite, which controls both economic and political power, is to blame 
for these problems. They regard genuine democracy as the only remedy.
    The Hong Kong government's response has been mixed but restrained 
on the whole.
    The Hong Kong police did commit excesses in their attempt to 
control the crowds. Teargas was used once early on, and pepper spray on 
a number of occasions since then. There was one particular incident 
where police officers beat a protester excessively (for which seven of 
the officers involved were arrested last week).
    It is worth noting that the scenario for which the police prepared 
was not the one that occurred. What was expected was a civil 
disobedience action in a relatively restricted area with a moderate 
number of protesters who, following their leaders' plan, would allow 
themselves to be arrested. What happened in late September was very 
different. There were three venues instead of one. Many more protesters 
took part, and they had no interest in quickly offering themselves for 
arrest. Instead, they sought to maintain control of public 
thoroughfares, a violation of law, until Beijing and the Hong Kong 
government made major concessions. Even when courts have ordered some 
streets cleared, those occupying have not always complied.
    After the initial clashes, the Hong Kong government chose not to 
mount a major crackdown but instead to wait out the protesters. It 
accepted the occupation for a number of weeks, and now seeks to clear 
some streets pursuant to court order. Moreover, the government 
undertook to engage at least one of the students in a dialogue over how 
to end the crisis. In the only session of the dialogue to occur, on 
October 21, senior officials floated ideas to assuage some of the 
protesters' concerns and to improve upon the electoral parameters laid 
down by Beijing.
    The dialogue has not progressed for two reasons. First of all, the 
Hong Kong government is not a free agent in resolving the crisis. 
Beijing is the ultimate decider here, and the Hong Kong government must 
stay within the guidelines it sets. Second, the student federation 
leaders who took part in the dialogue are not free agents either. They 
represent only one of the student groups, and other actors are 
involved. With its leadership fragmented, the movement has never 
figured out its minimum goals and therefore what it would accept in 
return for ending the protest. It underestimated Beijing's resolve and 
instead has insisted on the impossible, that Beijing withdraw the 
August 31 decision. Now, even though the Hong Kong public and the 
leaders of the original Occupy Central effort believe that the 
protesters should retire to contend another day, the occupation 
continues.
    For those who believe that the rule of law is a fundamental pillar 
of Hong Kong's autonomy, the last 2 months have been worrisome. Once 
some members of a community decide for themselves which laws they will 
obey and which they won't; once the authorities pick and choose which 
laws they will enforce and abide by, the rule of law begins to atrophy. 
The protesters' commitment to democracy is commendable. The generally 
restrained and peaceable character of their protest has been widely 
praised. But something is lost when both the community and its 
government begins to abandon the idea that no one is above the law.
    Regional views implications: Observers have believed that the 
implications of the Umbrella Movement are greatest for Taiwan, because 
Beijing has said that Taiwan will be reunified under the same formula 
that it used for Hong Kong (one-country, two systems). And there was 
momentary media attention in Taiwan when the Hong Kong protests began, 
but it quickly dissipated. The vast majority of Taiwan citizens have 
long since rejected one-country, two systems. China's Hong Kong 
policies only reconfirm what Taiwan people already knew.
    Hong Kong events also send a signal to all of East Asia's 
democracies, not just Taiwan. Anyone who studies Hong Kong's politics 
and society comes to the conclusion that it has been as ready for 
democracy as any place in East Asia, and that its instability in recent 
years is due more to the absence of democracy than because it is 
unready.
    The long-standing premise of U.S. policy is that Hong Kong people 
are ready for democracy. Since the protest movement began, the U.S. 
Government has reiterated its support for the rule of law, Hong Kong's 
autonomy, respect for the political freedoms of Hong Kong people, and a 
universal-suffrage election that would provide the people of Hong Kong 
``a genuine choice of candidates that are representative of the peoples 
and the voters' will.'' Washington has also called for restraint on all 
sides.
    Finally, the strategic question for East Asia is what the rise of 
China means for its neighbors. That question will be answered in part 
by China's power relative to the United States and others. But it will 
also be answered by what happens between China and its neighbors in a 
series of specific encounters. Through those interactions, China will 
define what kind of great power it will become. North Korea, the East 
and South China Seas, and Taiwan are the most obvious of these specific 
encounters. But Hong Kong is as well. If the struggle there for a more 
democratic system ends well, it will tell us something positive about 
China's future trajectory. If it ends badly, it will say something very 
different.
    Looking forward, several options exist for resolving the crisis and 
only one of them is good.
    One option is a harsh crackdown by China. Article 18 of the Basic 
Law gives Beijing the authority to declare a state of emergency in Hong 
Kong if ``turmoil'' there ``endangers national unity or security and is 
beyond the control'' of the Hong Kong government. In that case, Chinese 
national laws would be applied to Hong Kong and could be enforced in 
the same way they are in China. We would then see crowd control, 
Chinese style. I believe this scenario is unlikely as long as Beijing 
has some confidence that the protest movement will become increasingly 
isolated and ultimately collapse.
    A second option is that the occupation ends but the 
unrepresentative electoral system that has been used up until now 
continues. That would happen because two-thirds of the Legislative 
Council is required to enact the one-person-one-vote proposal of the 
Chinese and Hong Kong governments for electing the Chief Executive. 
Getting two-thirds requires the votes of a few democratic members. If 
all moderate democrats oppose the package for whatever reason, then the 
next CE will be elected by the 1,200-person election committee, not by 
Hong Kong voters. Protests are liable to resume. There is a danger that 
in response, Beijing will move quietly to restrict press freedom, the 
rule of law, and the scope for civil society beyond what it has already 
done.
    The third scenario is for a late compromise within the parameters 
of Beijing's August 31 decision. The goal here would be to create a 
process within the nominating committee that would make it possible for 
a leader of the democratic camp to be nominated for the Chief Executive 
election, creating a truly competitive election. That requires two 
things. First, the nominating committee must be more representative of 
Hong Kong society. Second, the nominating committee, before it picks 
the two or three election nominees, should be able to review a greater 
number of potential nominees. Done properly, that could yield the 
nomination of a democratic politician whom Beijing does not mistrust 
but whose platform would reflect the aspirations of democratic voters. 
Prominent individuals in Hong Kong have discussed this approach in 
print, and Hong Kong senior officials have hinted a willingness to 
consider it. For such a scenario to occur, Beijing would have to be 
willing to show more flexibility than demonstrated so far; the Hong 
Kong government should be forthcoming about what it has in mind; and 
some leaders of the democratic camp must be willing to engage both 
Beijing and the Hong Kong government. In the climate of mutual mistrust 
that has deepened since August 31, that is a tall order. But at this 
point it appears to be the best way out of a bad situation.
                                 ______
                                 

              Prepared Statement of Dr. Sophie Richardson

    Mr. Chairman, Ranking Member Rubio, and distinguished members of 
the subcommittee, thank you for inviting me to testify today. As 
protestors remain on the streets of Hong Kong, this discussion is 
timely, and we hope to clarify the critical human rights issues at 
stake.
    It is appropriate to recall that in 1997 the hope was that not only 
would Hong Kong's autonomy be respected, and the rights to the freedom 
of assembly, expression, and political participation there would remain 
intact, but also that these realities might have a positive effect on 
the mainland. People in Hong Kong have continued to make clear how much 
they value an independent judiciary, a free press, a meritocratic civil 
service, and a professional police force. Yet developments of the past 
year have shown that in fact, the mainland's politics and disdain for 
rights are having alarming consequences for those realities, a 
territory of critical importance to the United States and within the 
region.
    Since 1997, Human Rights Watch has expressed concern over erosions 
of Hong Kong's autonomy, particularly with respect to the independence 
of the press, increased interference into Hong Kong politics, and a 
growing role for Beijing's Central Liaison Office in Hong Kong. 
Consistent with its attitude toward other regions on its periphery from 
Tibet to Taiwan, President Xi Jinping's government appears to perceive 
Hong Kong people's greater demands for a fully elected government--one 
that responds to their concerns and one in which they are entitled to 
according to law--as an existential threat. Beijing has insisted that 
the Chief Executive must be someone who passes a political litmus test 
set by the Chinese Communist Party, has made clear that efforts by 
people in Hong Kong to press their demands through every possible 
peaceful avenue will be rejected, and has moved swiftly to crush any 
expressions of sympathy in the mainland for pro-democracy efforts in 
Hong Kong.
    The extraordinary demonstrations by a cross-section of people in 
Hong Kong are in turn not simply about the composition of Hong Kong's 
nomination committee. After waiting patiently for years for China to 
fulfill its promise to give democracy, many are angry at the central 
government's overreach, particularly with respect to its decision to 
retain control over the selection of Hong Kong's leader. Many expressed 
growing frustration and a sense of marginalization by the Hong Kong 
government, arguing that it increasingly failed to respond to the 
interests of the majority on issues ranging from education policy to 
urban planning. They are also a reaction to threats to key independent 
institutions in the territory that have helped protect human rights, 
and to growing unease over whether the Hong Kong government is serving 
the interests of the Hong Kong people or the central government when it 
comes to key decisions. In the broadest sense, the current tensions are 
local and logical reactions of people who have enjoyed civil liberties, 
an independent judiciary, a free press, and a reasonably responsive 
government, but who see these freedoms increasingly threatened, and who 
have some sense of how these rights are denied just across the border.
         beijing's legal obligations with respect to hong kong
    The 1984 Sino-British Joint Declaration spells out the terms for 
transfer of Hong Kong from British to Chinese control. That document 
stipulates that Hong Kong shall have ``a high degree of autonomy'' in 
matters other than national defense and foreign policy, while the Basic 
Law, Hong Kong's functional constitution, states that universal 
suffrage is the ``ultimate aim'' for the selection of the Chief 
Executive, the top leader, as well as members of the Legislative 
Council. The Basic Law also provides that the International Covenant on 
Civil and Political Rights (ICCPR) applies to Hong Kong, and the 
Covenant's guarantee of universal and equal suffrage means that people 
not only have the right to vote in elections, but also that they should 
have the right to stand for elections regardless of their political 
views. The committee responsible for monitoring the implementation of 
the ICCPR has also stated that when the law requires a certain 
threshold of supporters for nomination, ``this requirement should be 
reasonable and not act as a barrier to candidacy.''
    Hong Kong's Basic Law states that Hong Kong can move toward the 
goal of universal suffrage by amending the electoral methods in three 
steps. First, two-thirds of all Legislative Council members have to 
endorse the amendments. Second, the current Chief Executive has to 
agree to it. Lastly, the amendments have to be reported to China's 
Standing Committee for the National Peoples' Congress (NPCSC) for 
approval.
    The central government, in a series of decisions made since 1997, 
has backtracked on this obligation to institute universal and equal 
suffrage. The commitment to allowing electoral reform to be decided by 
Hong Kong people was first broken on April 6, 2004, when the NPCSC made 
an ``interpretation'' of the Basic Law adding a requirement that the 
Chief Executive submit a report to Beijing justifying the need for any 
further democratization. The decision shifted the initiative in 
proposing electoral reforms to Beijing's hand-picked Chief Executive, 
and away from the Legislative Council. In April 2004, directly after 
this NPCSC decision, the Chief Executive submitted a report that 
downplayed the need for substantial reform, and the NPCSC quickly 
followed this with a decision that ruled out universal suffrage for the 
2007 selection of the Chief Executive and the selection of the 2008 
Legislative Council.
    In 2007, it ruled again that there would not be universal suffrage 
for the next elections of the Chief Executive and the Legislative 
Council in 2012. However, the 2007 decision also said that universal 
suffrage was ``maybe'' in store for the next Chief Executive election 
and Legislative Council elections in 2017 and 2020, respectively.
                          recent developments
    As Hong Kong authorities began in late 2013 to prepare for a public 
consultation on how the 2017 elections should be carried out, Li Fei, a 
top mainland official and chairman of Beijing's Basic Law Committee, 
gave a speech stating that Hong Kong's Chief Executive must be an 
individual who ``loves the country and loves Hong Kong,'' and that 
people who ``confront the central government'' do not meet this 
criterion. This followed similar pronouncements by Li's predecessor, 
Qiao Xiaoyang, as well as the director of the Liaison Office of the 
Chinese Government in Hong Kong, Zhang Xiaoming. Li added that the 
nomination committee for the Chief Executive would be restricted to a 
small selected group of Hong Kong people who will make a ``collective'' 
decision on candidates allowed to run in the election. The position 
countered earlier proposals by pro-democracy groups advocating a 
process in which all Hong Kong voters would be considered ``members'' 
of the nominating committee and candidates securing a specified number 
of public nominations would get on the ballot.
    Over the subsequent months, the Hong Kong government and large 
parts of the public made their views clear about democracy and about 
Hong Kong's future. In early June 2014--shortly after the 25th 
anniversary of the Tiananmen Massacre--the Chinese Government issued a 
``white paper'' asserting ``overall jurisdiction'' over Hong Kong, and 
that Hong Kong ``is limited to the level of autonomy granted by the 
central leadership.'' This was widely seen as a violation of the 
commitment to ``one country, two systems'' in which Hong Kong would be 
granted ``a high degree of autonomy,'' except in foreign affairs and 
defense. While the substance of the ``white paper'' was not new, and 
carries no legal weight, its timing and language were seen as abrasive 
and unnecessary by many in Hong Kong.
    In late June 2014, more than 700,000 Hong Kong people--one in five 
registered voters--participated in an unofficial, nonbinding referendum 
to choose among three proposals for political reform that ensure 
universal suffrage via the pro-democracy ``Occupy Central with Love and 
Peace'' movement. The central government dismissed this effort as 
illegal and the product of ``anti-China forces.'' In mid-July, Hong 
Kong Chief Executive (CE) Leung Chun-ying submitted the results of the 
government's public consultation to the central government, claiming it 
was ``mainstream opinion'' that a subsequent CE ``love China and love 
Hong Kong,'' that the power to nominate CE candidates should remain 
vested in a committee controlled by Beijing, and that the legislature 
should not be democratized before the 2017 elections. The results of 
the public consultation as presented to the central Chinese Government 
were clearly manipulated, and failed to reflect different views 
articulated by large segments of the population.
    Following the report's submission, on August 31, 2014, the NPCSC 
handed down its decision, which catalyzed the Occupy demonstrations: 
while it would allow all eligible voters in Hong Kong to cast ballots 
for the territory's Chief Executive, it would impose a stringent 
screening mechanism that effectively bars candidates the central 
government in Beijing dislikes from nomination for Chief Executive.
    In reaction to the Chinese Government's August 31 rejection of open 
nominations for Hong Kong's Chief Executive, Occupy Central protest 
leaders, pan-democrats, and student protest leaders vowed to launch an 
``era of civil disobedience.'' Students boycotted classes between 
September 22 and 26; as that boycott came to a close, a group of 
students entered Civic Square, in front of the government headquarters 
in Admiralty, without permission. Police surrounded the students, and 
arrested and pepper sprayed some of them. The police treatment of the 
students provoked a large number of people--about 50,000--to congregate 
around Civic Square on September 27. ``Occupy Central'' organizers then 
announced that they were officially launching their planned 
demonstrations.
    On September 28, Hong Kong police declared the protest illegal, and 
cordoned off the government headquarters grounds. The announcement drew 
even more protesters, who demanded access to the government 
headquarters. After an hours long standoff with police, protesters 
walked out onto a major thoroughfare that separated them from 
government headquarters. Police responded with pepper spray, batons, 
and 87 cans of tear gas. Protesters refused to disperse, and by the 
next morning they had occupied three sites in Hong Kong. For weeks, two 
of these sites remained occupied by hundreds of protesters, despite 
repeated police clearances, and assaults by persons opposing the Occupy 
movement. After police cleared one site in Mongkok on November 26, 
protesters responded with ``fluid occupation'' which involves 
repeatedly ``crossing roads'' slowly along the stretch of the former 
occupy sites to temporarily block traffic, as well as a failed 
escalation on November 30 to block all access to government 
headquarters in Admiralty.
                         human rights concerns
    Human Rights Watch has a host of concerns about human rights 
violations in Hong Kong, both specific to the protests and to larger 
issues.
    On the core issue of electoral arrangements, the Basic Law 
guarantees the continued application of the International Covenant on 
Civil and Political Rights to Hong Kong, which in turn guarantees that 
people shall not only have the right to vote in elections, but also 
that they should have the right to stand for elections regardless of 
their political views. While the August 31 NPCSC decision will expand 
the vote to choose the Chief Executive to all eligible voters, it 
retains central government control over the nominating committee that 
will determine who may run as a candidate for Chief Executive. As 
recently as October 23, 2014, the U.N.'s Human Rights Committee 
expressed concern that the proposed nomination process poses 
``unreasonable restrictions'' on the right to run.
    The protests themselves have involved a number of human rights 
violations.

  <bullet> Mainland and Hong Kong authorities deemed the protests 
        illegal because organizers had not obtained permission under 
        the Public Order Ordinance. Yet this Ordinance is in tension 
        with international law because it imposes significant 
        restrictions on the freedom of assembly without considering the 
        importance of the right to gather to express grievances, and is 
        susceptible to political abuse.
  <bullet> The Hong Kong police's use of force, including tear gas and 
        pepper spray, against unarmed protestors is of deep concern. 
        While we note as positive Chief Executive Leung's condemnation 
        of violence against protestors on October 4, and the arrest of 
        seven police in late November for their brutal beating on 
        October 16 of a peaceful demonstrator, the October 6 statement 
        by the Chief Executive that authorities would use ``all actions 
        necessary'' and evidence of further incidents involving 
        excessive use of force by the police have undermined public 
        confidence in the strict adherence of the police to the U.N. 
        Basic Principles on the Use of Force and Firearms. Human Rights 
        Watch calls on the Hong Kong government to conduct an 
        independent investigation into police conduct during the 
        protests.
  <bullet> We are similarly deeply concerned about arrests of peaceful 
        protestors at the beginning of the demonstrations in late 
        September, but also during the late November efforts to clear 
        protestors from particular locations, including the arrests of 
        student demonstration leaders Joshua Wong and Lester Shum.
  <bullet> We are also concerned that protesters appear to be subject 
        to various types of intrusive surveillance by both the Hong 
        Kong and Chinese governments, which apparently have based 
        decisions to arrest protest leaders and bar others from 
        entering China on their online postings and participation in 
        the protests. The sense of pervasive collection and monitoring 
        of participation in public debates and protests have thrown a 
        pall over Hong Kong's robust civil liberties.
                          larger implications
    The central and Hong Kong government's failures to engage 
meaningfully with popular demands for greater democracy in the 
territory--through a formal consultation process, through a civic 
referendum, through months of peaceful demonstrations--leaves a 
longtime bastion of respect for rule of law on edge.
    Beijing has made its disdain for the views of people in Hong Kong 
clear through its extraordinary overreach regarding autonomy, electoral 
arrangements, and a host of other policy issues. And because the 
Chinese Communist Party cannot countenance the idea that people in 
China might actually want participatory governance, it has repeatedly 
dismissed the demonstrations as a product of external, ``anti-China 
forces.''
    It has also made clear that it will not tolerate any expressions of 
support in the mainland for the demonstrators in Hong Kong. More than 
100 individuals have been detained in the mainland in recent months for 
doing as little as posting pictures of themselves holding a sign 
expressing support for Hong Kong people's demand for genuine universal 
suffrage. Beijing's unwillingness to allow student leaders or those 
sympathetic to the demonstrations from Hong Kong into the mainland is 
an utterly anachronistic and counterproductive strategy for dealing 
with the concerns there.
    None of this bodes well for expectations that China will comply 
with key international legal obligations, come to grips with peaceful 
dissent, or accept--for Hong Kong, for Tibet, or for Xinjiang--the idea 
that many successful governments around the world have officials and 
administrations from regions benefiting from autonomy arrangements with 
views divergent from those at the national level. It is also an ominous 
sign for Hong Kong as a critical space for activists and organizations 
that work on or monitor developments in China. The efforts of 
nonviolent protestors in Hong Kong has also triggered expressions of 
concern across the region, prompting reactions from Tokyo, which rarely 
speaks publicly about human rights concerns in China, and from Taiwan, 
where voters appear to have been particularly motivated to reject a 
government arguing for closer ties to Beijing.
                             u.s. response
    The United States has expressed concern about violence against and 
by demonstrators, about the right to peaceful assembly, and the rights 
to vote and to run, and officials have said they have expressed these 
concerns directly to the highest levels of the Chinese Government. Some 
U.S. commentary, such as the initial statement regarding the August 31 
NPCSC interpretation, did not accurately characterize the problem, 
while other remarks are superficially sensible--calling, for example, 
that differences be addressed through peaceful dialogue--but seem to 
deny the reality that Hong Kong peoples' efforts to do just that have 
been ignored. President Obama's comments on Hong Kong while in Beijing 
were so calibrated as to be convoluted, and he and other U.S. officials 
have repeated so frequently that the United States has had no role in 
fomenting or sustaining the demonstrations that it seems more concerned 
in assuaging Beijing's irrational fears than in standing up robustly 
for democratic rights.
    We believe the U.S.' response to be factually accurate but 
functionally and diplomatically ineffective. It makes the mistake of 
focusing disproportionately on the reactions of the Chinese Government 
while forgetting to demonstrate solidarity with those on the front 
lines of a struggle for democracy. It is appropriate to ask why 
President Obama could be so publicly restrained on the topics of 
elections and democracy in Beijing yet a few days later offer up 
extensive commentary and support on the same subject in Burma, and 
shortly after in Australia. One thinks about visible gestures of 
solidarity for democracy elsewhere--for example, U.S. Assistant 
Secretary of State Victoria Nuland handing out bread to demonstrators 
in Maidan Square, American ambassadors observing elections (or 
expressing concerns about those elections' shortcomings) in other parts 
of Asia, or the U.S. vociferously decrying the rollbacks of democratic 
rights in other parts of the world. Why not Hong Kong?
    To be so reticent has three problematic consequences. It undermines 
the very purpose of the U.S.-Hong Kong Policy Act, and it enables other 
governments, which for better or for worse take their cues on these 
issues from the U.S., to remain virtually silent. Arguably most 
problematic, it telegraphs to pro-democracy activists in Hong Kong and 
the mainland that they can likely only count on perfunctory support or 
recognition from the United States.
                            recommendations
    Physically removing demonstrators from the streets of Hong Kong 
will do little to answer their underlying grievances, and arguably will 
serve to exacerbate them. Already tensions between protesters and 
police have risen to a breaking point. The most critical and urgent 
step the central and Hong Kong governments can take is to revisit the 
territory's undemocratic electoral arrangements and ensure that 
appropriate ones are fashioned--as required by article 45 of the Basic 
Law--``in light of the actual situation,'' where the majority favors 
genuine democracy. We urge that both take immediate action, including 
by developing a time-bound and detailed plan, to put into practice 
universal and equal suffrage. Both should ensure that any proposals for 
nominations for the 2017 chief executive elections conform to 
international human rights standards, including those set out in the 
ICCPR. Any committee established for nominating candidates for the 
elections should conform to such requirements.
    While it is reassuring to a point to see Hong Kong authorities 
investigate several police officers who were caught on camera viciously 
beating a protestor, that confidence is undermined by repeated 
incidents of excessive use of force. In just the past few days police 
have appeared to use excessive force in arresting student protest 
leaders Joshua Wong and Lester Shum on November 26 in Mong Kok as they 
stood by observing police; no warning or peaceful request to surrender 
to authorities were issued before police tackled them to the ground. In 
Admiralty and Mong Kok in the past 48 hours police have used pepper 
spray at close range after tearing off demonstrators' protective 
goggles, and used batons to hit people who were clearly trying to leave 
these areas. The authorities should meet with protest leaders, given 
that the single discussion held in October yielded no results. Hong 
Kong authorities should submit a new report to the central government 
acknowledging broad support for genuine democracy and ask the NPCSC to 
clarify or retract its August 31 decision to make the nomination 
committee for the Chief Executive genuinely ``broadly representative,'' 
as articulated in the Basic Law. The Hong Kong authorities should also 
take steps to further democratize the semidemocratic Legislative 
Council.
    The central government in Beijing should realize Hong Kong's 
political system is unsustainable and must be fixed to make it more 
responsive to people in the territory. Each of the Chief Executives 
handpicked by Beijing has proven deeply unpopular with significant 
numbers of people in Hong Kong. At the political level, it would be 
encouraging if the senior leadership in Beijing could accept the idea 
that people in the mainland and Hong Kong want democracy, and not 
construe Hong Kong peoples' demands for democracy as a threat to 
national security. At a minimum, Beijing should stop arresting people 
in the mainland for peaceful expressions of support to the 
demonstrators, and lift whatever restrictions have been put in place so 
that demonstrators can enter the mainland.
    It is encouraging to see the reestablishment of a Hong Kong caucus 
here in the Congress, and the introduction of an updated Hong Kong 
Policy Act. We believe that increased U.S. Government scrutiny and 
regular reporting are and should be seen as a positive obligation--an 
opportunity to identify critical developments and points of leverage in 
a territory of considerable diplomatic, economic, and strategic 
interest to the United States. Equally important, we urge the U.S. to 
be consistent in its support to democratic movements around the world. 
The people of Hong Kong deserve no less than their counterparts in 
other countries.

    Senator Cardin. So, I want to start, Dr. Bush, if I might, 
with your expertise in Taiwan. The reports that I have read 
indicate that what happened in Hong Kong had a direct impact on 
election results in Taiwan. So, I guess my point is, Secretary 
Russel said that we are watching, is the international 
community in the region watching what is happening in Hong 
Kong? And what impact does it have on the region itself?
    Dr. Bush. Thanks for the question.
    Let me endorse your general point. And that is, what China 
does in Hong Kong is going to give us an important signal of 
what kind of great power it is going to be. If this can somehow 
work out well, that would suggest a China that maybe we can 
live with. If it works out badly, that is a very different and 
negative message.
    With respect to Taiwan, frankly, there were a lot of issues 
at play, and we do not have the polling results yet to know how 
much Hong Kong made a difference. Obviously, it made some. I 
would say that people on Taiwan have long since dissociated 
themselves from the Hong Kong arrangements. They have always 
believed that they do not apply to them. So, when things go 
badly in Hong Kong, the attitude is, ``Well, this just proves 
it.'' But, I think, you know, among certain groups, it did have 
an impact. I think the results of the election, which were very 
much antiestablishment, also had an effect on Hong Kong in 
building up a certain level of enthusiasm this last weekend.
    Senator Cardin. Thank you.
    Dr. Richardson, I want to get your view on the human rights 
status in Hong Kong. In 1992, we said human rights are of great 
importance to the United States and directly relevant to U.S. 
interests in Hong Kong. Hong Kong enjoys a distinct status with 
the United States, even though it is ``one country, two 
systems.'' And our relationship with China is remarkably 
different than it is with Hong Kong, as I am sure you are 
aware.
    Most recently, the violence against protesters and the 
inability 
of British parliamentarians to be able to visit and see 
firsthand whether they are in compliance with their 
agreements--of great concern to us. Can you just give me your 
assessment as to the current status of basic human rights in 
Hong Kong?
    Dr. Richardson. Thank you very much for the question.
    You know, Hong Kong has historically been the bastion of 
rights in this part of the world. And I think part of the 
reason we are having this conversation today is because it is 
the democratic part of China. Obviously, there is room for 
greater growth for political rights, but I think, as the 
bulwark that we want protect, it is critically important.
    We have been very concerned, over the last year or two, 
about growing threats to Hong Kong's autonomy, but also--and, 
as a related matter, limitations on issues ranging from press 
freedom to immigration to certain court decisions about who has 
access to which kinds of government services. In the past year 
in particular, we have tracked what appear to be growing 
problems with respect to surveillance, particularly of either 
mainland activists or ethnic Chinese activists from other parts 
of the world who are in Hong Kong for obvious reasons, to have 
some contact with counterparts.
    I think the protests have been a little bit 
mischaracterized as simply being either carried out by students 
or specifically about the particularities of the nomination 
process or electoral arrangements. I think there is a much 
broader statement being made by a cross-section of people in 
Hong Kong who are increasingly concerned about their own 
ability to affect or command the attention of the Hong Kong 
Government. And I think, obviously, the nomination process is 
enormously problematic from a human rights perspective. I mean, 
this is black-letter international law, that people should have 
the right to run. You know, so this gives you a sense of some 
of the kinds of problems that Hong Kong's status is the place 
of a free press, that is safe for activists to operate, and 
where people can expect police to refrain from use of excessive 
force, which obviously has been an issue of real concern over 
the last 6 weeks, you know, where those problems do not 
pertain.
    Senator Cardin. Hong Kong enjoys----
    Dr. Bush. Could I just comment for----
    Senator Cardin. Yes.
    Dr. Bush. I am sorry.
    I think the danger in the current situation is that if some 
sensible compromise is not worked out along the lines of what 
Secretary Russel was talking about--and I think there is still 
a chance--that protests will continue and China will ratchet up 
or place greater limits on the human rights of people in Hong 
Kong, and particularly political rights. And this will not be 
obvious, this will not be out in the open. It will be somewhat 
covert, but it will have an impact.
    Senator Cardin. Hong Kong's special status in economic 
power in large part depends on an open relationship with the 
United States. What recommendations would you make as to how we 
leverage that relationship in order to advance basic rights in 
Hong Kong? And, if you want to, you can comment about the 
legislation that has been filed that would change the 
presumption. It would require the President to certify that 
Hong Kong is in status in order to be able to get the status, 
rather than currently, which requires the President to take 
affirmative action to deny them the special status. Your 
comments on how you would like to see the United States use its 
leverage with Hong Kong--or use its relationship with Hong Kong 
to leverage greater respect for democratic principles, human 
rights, and universal suffrage.
    Dr. Richardson. I think there are a couple of broad areas 
to focus on. The first is about linkage and leverage. I think 
there is less of an effort now than there was 10 years ago to 
link specific changes to specific policy initiatives, for 
example. I think the Chinese Government is extremely 
transactional on these kinds of matters, and it is essential 
for the United States to use what Beijing wants as a way to 
press for what the United States 
wants. And so, for example, the Chinese Government is seeking 
much greater United States cooperation on terrorism and 
counterterrorism issues, about which we have some real 
concerns. Separate matter. But, I see no reason, you know, why 
the United States should not, or could not, say that revising 
the electoral arrangements in Hong Kong, per article 45 of the 
Basic Law, is a requirement for further cooperation in some of 
those other realms. I think there are a lot of opportunities 
for linkage that are not being pursued.
    I respectfully disagree with Assistant Secretary Russel 
about the U.S. Government's rhetoric when it has mostly, I 
think, been factually accurate. I think it has been muted. It 
has not necessarily been deployed when it was needed most. And 
I think, to a large extent, it has not really reached the 
people in Hong Kong who needed or wanted to hear it. I think 
the United States continues to be quite inconsistent about 
issues about political rights and democracy in Hong Kong and 
China, relative to the kind of support that it chose for those 
issues in other parts of the world. And being consistent, I 
think, matters enormously with Beijing.
    Senator Cardin. Dr. Bush.
    Dr. Bush. Thank you very much.
    If there is a possibility, along the lines of what 
Secretary Russel was saying, of getting a competitive election 
out of this current unfortunate situation, then we should be 
working with all sides in Hong Kong, both the Hong Kong 
government and people in the pan-democratic camp to help, 
perhaps behind the scenes, to bring it about. But, the 
important thing is that we are effective.
    With respect to the legislation that you have introduced, I 
fully support restoring a periodic report by the Department of 
State concerning developments in Hong Kong and how they relate 
to the standards set forth in the act.
    I am agnostic on the issue of certification. I guess my 
main concern has to do with the definitions of what one is 
going to be certifying--laws, agreements, and arrangements. It 
is not clear what ``arrangements'' are. It could be some very 
specific things, it could be very general. And so, I would 
encourage some work on defining what it is that is going to be 
certified. I do believe that the autonomy is very important. I 
worked on the House Foreign Affairs Committee, and I was the 
lead staffer on the House side in 1992 on the United States-
Hong Kong Policy Act. And, for me, section 201 about Hong 
Kong's autonomy was absolutely the most important section. It 
remains the important section. I think that it should be 
possible, between this committee and the administration, to 
work out an effective way to ensure that that autonomy is 
preserved.
    Senator Cardin. That is--yes, Dr.----
    Dr. Richardson. Sorry, may I follow up, quickly?
    We are proponents of the idea of reinstating the reporting, 
in no small part because--look, even if the issue about the 
nomination committee gets resolved--and I am skeptical about 
the Hong Kong government's willingness and ability to 
accurately represent the views of people in Hong Kong to the 
Central Government and push for a better outcome--but, this is 
not the end of the line. It is very clear, I think, that the 
Chinese Government intends to find ways to try to manipulate 
membership of Ledgco, of what its agenda could possibly 
include. We are going to be fighting this battle for a long 
time, and I think having those kind of reports in hand can be a 
very useful tool.
    Senator Cardin. This is a good transition to the principal 
Republican sponsor of the legislation, Senator Rubio. 
[Laughter.]
    Senator Rubio. Thank you. And I know we have votes, so I 
will be quick. I have two questions; one for you, Dr. 
Richardson.
    I look at the U.S. response to this, and it seems like the 
majority of our statements are designed to prove that we have 
nothing to do with what is going on, as opposed to standing on 
behalf of the people that are fighting. In fact, you saw that 
in the testimony today, that the rationale behind the statement 
was, we wanted to make clear that we were not behind any one 
group versus another. And that should be 10 percent of what we 
talk about. Ninety percent of this should be about democracy. 
Can you contrast what the U.S. reaction has been to what is 
happening in Hong Kong to the position the United States has 
taken in other parts of the world where there has been 
democracy movements, whether it is Burma or Ukraine or other 
parts of the world? How would you compare the U.S. reaction to 
this versus the U.S. reaction to other democracy movements 
around the world?
    Dr. Richardson. Well, I think you can look at it in a 
couple of different ways. You know, I find myself thinking 
about, for example, Assistant Secretary Nuland walking out into 
Maidan Square and handing bread to people. You know, it was a 
very evocative response, a gesture of support. You know, 
obviously, there are different circumstances, but, you know, 
clearly the United States is capable of very demonstrably 
showing its support in certain circumstances.
    Look at, you know, what the President said when he was in 
Beijing. Again, you know, factually accurate in making the 
right points, but, I think, in a way that was maximally 
designed not to irk his hosts. I do not mean to belittle the 
blowback that Assistant Secretary Russel will have received for 
that. But, you can see that it is so calibrated as to become 
convoluted. Fast-forward 36 hours, when the President is in 
Burma, where he is speaking very clearly, very evocatively, and 
in great detail about the importance of democracy, elections, 
the particulars of the electoral arrangements. I think that 
really sends a message to pro-democracy activists in Hong Kong 
and in the mainland that they should not have, necessarily, 
terribly high hopes for the kind of support that they are going 
to get from the United States in these circumstances.
    Senator Rubio. I think the bottom line is that it is clear 
that our response to the democratic aspirations of people on 
the mainland or anywhere else when it comes to China are muted 
by real realpolitik considerations with regarding to China's 
influence and size. In essence, if you want democracy--if you 
are going to fight for democracy and democratic openings in a 
place where China does not want it, you are not going to get 
the same response from the United States that you would in 
other parts of the world, because we do not want to ruin our 
relationship with the Chinese. That is the message that people 
are taking. And I think it is a counterproductive one.
    And then, my question for you, Dr. Bush, is, If you put 
yourself in the position now of people in Taiwan--or, for that 
matter, any other nation in East Asia--as they look at Hong 
Kong as indicative of the nature of the Chinese Government, 
what are they taking away from what they are seeing right now?
    Dr. Bush. If you were a citizen of a country in Asia, and 
if you had watched what has happened in Hong Kong over the last 
20-plus years, you would understand pretty clearly that the 
Chinese Government rigged this political system to keep its 
friends in power. And that system is illegitimate. The leaders 
who are produced by it do not have the support of the people. 
Hong Kong is now unstable because of that. So, if you want 
stability in Hong Kong, which China says it does, if you want 
stability anywhere, it needs to be based on an open, 
competitive, democratic system. That is the way to get 
legitimate governments.
    Senator Rubio. But, that is not what they offer.
    Dr. Bush. No, it is not. There are ways, I think, of 
working, even within the narrow confines to facilitate a 
competitive election. I am not terribly optimistic that it is 
going to work out that way. But, if they go in the direction 
that you fear and that I fear, they will continue to face 
problems in Hong Kong.
    Senator Rubio. So, my understanding is that the Chinese 
proposal for what it wants to see Taiwan become is very similar 
to the Hong Kong model.
    Dr. Bush. The slogan is the same, and it has been rejected 
by Taiwan people----
    Senator Rubio. They know better.
    Dr. Bush. They know much better. For all its problems, 
Taiwan people like the democracy that they have, and they do 
not want to go backward, which is where they see Hong Kong is 
in relation to them.
    Senator Rubio. Is it fair to say--and this is my last 
question--that looking at what is happening in Hong Kong now is 
a true indication of the nature of the Central Government, and 
that, moving forward, all of us who care about future of 
China's rise in the world, but also its relationship with the 
United States and with its neighbors, needs to realize that 
what they say--you know, they go into these international 
forums, they smile, and they say one thing, and what they are 
going to do--are two very different things. When they talk 
about autonomy, when they talk about democratic opening, what 
it means to them is very different from what we think it means. 
And so, that is where you wind up in a situation like what we 
have today, where we have someone testifying on behalf of the 
State Department and the administration that the agreement does 
not violate the letter of the agreement, but it violates the 
spirit of it. In essence, they may use the same terms that we 
use, but, in practice, they are not the same terms. And the 
lesson to be learned is, that is the true nature of this 
government, for anyone who is looking to do a future 
arrangement or agreement with them.
    Dr. Bush. Anybody who has studied China professionally 
knows that their definition of terms is not our definition of 
terms. And we have to adjust our diplomacy to take account of 
that. I think Hong Kong people understand that China's use of 
terms is not their use of terms, either.
    Thanks.
    Senator Cardin. Let me thank both of our witnesses.
    I think there is agreement here that, where we normally 
look for pragmatism to deal with diplomatic issues, in this 
situation it does not work, because the consequences are far 
beyond what is happening Hong Kong today. As Senator Rubio 
pointed out, and as Dr. Bush pointed out earlier to my 
question, the impact on Taiwan is very clear, the impact on a 
lot of Asian countries is very clear, because of their 
relationships with China and China's importance in the region 
and whether they will adhere to understandings that are pretty 
clear. And, in Hong Kong, it was very clear that Hong Kong 
would be autonomous, as Secretary Russel said--``one country, 
two systems,'' but it would have the autonomy. You do not have 
the autonomy unless you have the right to select your leader. 
And that was clear in the initial declaration, original 
commitments to have universal suffrage, which clearly the 
August declaration statement backed away from. I could not 
agree more with Senator Rubio that this is not a technical 
violation, et cetera, that this is clearly inconsistent and 
totally against the commitment made by China for allowing 
universal suffrage. And it is a matter that we need to be very 
clear about. And I think you will hear clear statements on this 
subject from the Members of the Senate.
    We have potential action. Senator Rubio has a bill that he 
has filed, and I know that it will be on our agenda next year. 
And we certainly will be watching this issue very carefully. We 
will see how they are dealing with basic human rights, 
including how they deal with the demonstrators and how they 
deal with allowing people access, something you would normally 
expect from an open society that Hong Kong claims it is. That 
will be matters that will be very carefully watched, not just 
by the Members of the U.S. Senate, but I think by the global 
community.
    So, I want to thank both of you for your contributions to 
this hearing and your understanding of how we had to abbreviate 
it to deal with the realities of the Senate schedule.
    And, with that, the subcommittee will stand adjourned.
    [Whereupon, at 10:17 a.m., the hearing was adjourned.]
                              ----------                              


              Additional Material Submitted for the Record


       Submitted Written Testimony of Ellen Bork, Senior Fellow, 
                       Foreign Policy Initiative

    I am grateful to Chairman Rubio and members of the subcommittee for 
this opportunity to submit testimony for the record of this important 
hearing.
    The protesters who began occupying Hong Kong's streets in late 
September have not achieved their objective: the democratic election of 
the Chief Executive who runs the affairs of Hong Kong's 7.2 million 
people. Neither the Hong Kong government, nor the central government in 
Beijing has shown any flexibility regarding an August 31 ruling of the 
National People's Congress Standing Committee in Beijing that in future 
Hong Kong voters will choose their chief executive from among 
candidates approved by Beijing with the additional criterion that they 
must ``love the Country and love Hong Kong,'' or, in other words, be 
loyal to the Chinese Communist Party.
    Instead, the Chinese Government has dubbed the protests illegal and 
the Hong Kong authorities acting on Beijing's behalf refuse to 
countenance any change from the Basic Law, Beijing's ``constitution'' 
for Hong Kong. As of this writing, some protest leaders are on a hunger 
strike. Others have turned themselves in to the police as a further 
gesture of civil disobedience. The police and court officials are 
whittling down protest encampments and the student group at the 
forefront of the protests has suggested it may call for an end to 
street demonstrations.
    Whatever happens next, there is no returning to the status quo ante 
for the people of Hong Kong, for China's Communist leadership, or for 
the United States. Chinese leaders have demonstrated decisively that 
they do not intend to allow Hong Kong autonomy or a transition to 
democratic government, regardless of any commitments they may have made 
in the past. Hong Kong's democracy movement has been reinvigorated by a 
surge of participation by the youngest citizens. Meanwhile, all of Hong 
Kong is developing an identity, distinct from the mainland, linked to 
Hong Kong's rule of law, civil liberties and in reaction against 
Beijing's obstruction of democracy. In response to these developments, 
U.S. policy devised to fit the circumstances at the time of the 1997 
handover of Hong Kong to Chinese rule, needs to be revised.
    As Members of Congress think about how to do that, I respectfully 
suggest they keep several points in mind.
    A new generation of younger and student activists has transformed 
Hong Kong's democracy movement. Recent surveys show strong support for 
democracy among the population at large and especially among youth and 
young adults. Student protest leaders have eclipsed the older, 
established pro-democracy politicians whom they regard, even if 
unfairly, as tainted by participation in the post-1997 institutions set 
up by Beijing to contain, rather than advance democracy, such as the 
only partly elected Legislative Council. Aware of this, the leadership 
of the pro-democracy political parties exhibited a striking degree of 
deference to the student leaders.
    At the same time, Hong Kong is developing a distinct identity. The 
number of people who identify themselves as ``Chinese'' or with 
reference to the PRC has fallen according to the Hong Kong University 
Public Opinion Program which asks Hong Kong people about their ethnic 
identity, offering a number of categories which reflect their 
attachment to a Hong Kong, Chinese, or other identities. According to 
the survey, ``Both the indices of ``Chinese'' and ``citizens of the 
PRC'' are once again at their lowest since the compilation of these 
indices in 2008. . . . The feeling of being ``citizens of the PRC'' is 
the weakest among all identities tested.'' These sentiments were on 
display at the Umbrella movement protests. ``I wouldn't say I reject my 
identity as Chinese, because I've never felt Chinese in the first 
place,'' one protester told Edward Wong of the New York Times. ``The 
younger generations don't think they're Chinese.''
    It's useful to remember that the ``one country, two systems'' 
concept has its origins in Beijing's desire to entice Taiwan to unify 
with Communist China in the late 1970s. Since then, Taiwan has 
democratized, and with it, developed a strong Taiwanese identity, 
making it ever more unlikely that Taiwan will agree to come under 
Communist Chinese rule absent coercion. Unlike Hong Kong, Taiwan has a 
defense commitment from the U.S. and American policy now includes a 
stipulation that any resolution of Taiwan's fate must be acceptable to 
people on both sides of the Strait.
    By contrast, Hong Kong people had no say in whether they were to be 
handed over to Communist rule. Many in the younger generation look 
askance at the system and institutions Beijing created for post-1997 
Hong Kong. The arrangements between China and Great Britain were made 
in early 1980s, before many of the current protesters were born, and 
over the heads of their parents.
    The failure of China's plans to deliver democracy and guarantee 
autonomy was predictable. ``To a Westerner,'' the historian Steve Tsang 
wrote in 1996, ``the idea of Hong Kong people administering Hong Kong 
within the framework of 'one country, two systems' may imply that after 
1997 Hong Kong will be free to run its own domestic affairs with no 
interference from Beijing as long as PRC sovereignty is acknowledged. 
Such an interpretation is totally unacceptable to Beijing.''
    The Umbrella movement has made it impossible to pretend any longer 
that Beijing intends to allow Hong Kong autonomy and democracy. Yet so 
far, despite support for Hong Kong's autonomy and democracy in the 
U.S.-Hong Kong Policy Act, the Obama administration has made it clear 
that will not confront Beijing over its actions, or seriously support 
democracy in Hong Kong.
    In late September, just as the protests were breaking out, the U.S. 
consulate in Hong Kong stated that America ``does not take sides'' 
regarding Hong Kong's democracy struggle. Little had changed by 
November 12, when President Obama spoke about Hong Kong in Beijing 
during a joint press conference with General Secretary Xi Jinping. 
President Obama appeared to be primarily concerned with assuring Mr. Xi 
that the U.S. was not interfering in Hong Kong affairs. The President 
acquiesced to the end of the protests--without any concessions by the 
Chinese Government toward democracy--so long as no violence was used. 
President Obama did not mention Beijing's detention of dozens of people 
on the mainland for brave actions endorsing the Hong Kong democracy 
movement, or the massive censorship of Hong Kong related content on the 
Chinese Internet.
    ``Ultimately,'' President Obama said, the issues underlying the 
protests; i.e., democracy and elections, were ``for the people of Hong 
Kong and the people of China to decide.'' This depiction of the 
democracy struggle in Hong Kong and China as taking place on an even 
playing field was problematic to say the least. By presenting the U.S. 
as a disinterested bystander, the President delivered a setback not 
only to the Hong Kong protesters but also to those working for 
democracy in the rest of China, in Russia and Iran and other places and 
gave a boost to the dictatorships in those and other countries.
    The premises on which U.S. policy and law are based are no longer 
valid. The thrust of current law is that Washington will respond to 
violations of Hong Kong's autonomy by withdrawing Hong Kong's separate 
treatment in some areas of U.S. law. That punishes the victim rather 
than the perpetrator. Instead, the U.S. should look for ways to impose 
costs on the central government and officials responsible for Hong Kong 
affairs. Chinese officials (and their relatives) who make or stash 
money in Hong Kong even while undermining Hong Kong's democratic 
aspirations are an appropriate target for financial or visa sanctions. 
Congress might ask to be briefed by the executive branch about the 
assets and travels of such officials.
    ``One country, two systems'' is not working--at least not the 
version that Hong Kong people were led to believe in. Recent events 
show that whether democracy advances in Hong Kong depends on principle 
and power, not China's fake constitutionalism and not even of 
international obligations China undertook in the Sino-British Joint 
Declaration.
    It has become commonplace to remark that the Umbrella Movement has 
changed Hong Kong forever. It is not yet clear whether the U.S. policy 
will also respond to this momentous change.

                                  <all>

</pre></body></html>
